                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Impact of EPA’s
                     Conventional Reduced
                     Risk Pesticide Program
                     Is Declining
                     Report No. 14-P-0322               July 24, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Jerri Dorsey
                                                     Gabrielle Fekete
                                                     Jeffrey Harris
                                                     Kathryn Hess
                                                     Thane Thompson




Abbreviations

CRRP           Conventional Reduced Risk Pesticide
EPA            U.S. Environmental Protection Agency
FIFRA          Federal Insecticide, Fungicide and Rodenticide Act
IR-4           Interregional Research Project No. 4
OIG            Office of Inspector General
OPP            Office of Pesticide Programs
PRIA           Pesticide Registration Improvement Act
USDA           U.S. Department of Agriculture


Cover photos: From left: ground-based equipment applying agricultural chemicals;
              crop-duster applying agricultural chemicals by air. (EPA photos)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0322
                                                                                                           July 24, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review                 Impact of EPA’s Conventional Reduced Risk
We conducted this review of the        Pesticide Program Is Declining
U.S. Environmental Protection
Agency’s (EPA’s) Conventional           What We Found
Reduced Risk Pesticide (CRRP)
Program to determine whether it        The impact of the CRRP Program has
was meeting its goal of reducing                                                        The number of newly registered
                                       declined over the last 10 years. The CRRP        reduced risk pesticides may
risks to human health and the          Program is registering fewer reduced-risk        continue to decline unless the
environment by encouraging the         pesticides compared to the number                EPA can reduce barriers to
development, registration and          registered prior to the 2004 implementation      participation.
use of pesticide products that         of the Pesticide Registration Improvement
are lower risk.                        Act (PRIA). In our opinion, PRIA is a factor in declining CRRP impact because it
                                       increased the cost to register reduced risk pesticides and decreased the time-
Pesticides are widely used in          to-market savings that reduced risk pesticides previously had over conventional
agricultural, commercial and           pesticides. The EPA does not have the statutory authority to provide fee-
household settings. Once               reduction incentives for companies continuing to develop and register reduced
released into the environment,         risk pesticides.
pesticides have the potential to
pollute rivers, groundwater, air,      Implementing steps to remove participation obstacles can increase participation
soil, wildlife and food. The EPA       and the impacts of the CRRP Program. Moreover, improving the measurement
developed the CRRP Program to          of the program’s outcomes can more accurately capture the impacts of the
quickly register reduced risk          CRRP Program. The program’s existing performance measure focuses on the
alternatives to those currently on     use of reduced risk pesticides in agriculture. The measure does not capture the
the market. Reduced risk               complete population of CRRP products in the marketplace. For example, CRRP
pesticides are designed to be          products used in non-agricultural markets—such as residences or around food
less harmful to humans, birds,         products—are not captured, and the EPA has not developed ways to cost
fish and/or plants; have lower         effectively collect non-agricultural use data.
potential for groundwater
contamination; and require lower       Noteworthy Achievements
application rates.
                                       The CRRP Program has succeeded in bringing reduced risk pesticides to
This report addresses the              market since 1994. More than 727 reduced risk pesticide uses have been
following EPA goal or                  approved and reduced risk pesticides account for approximately 22 percent of
cross-agency strategy:                 farm acres treated in the United States each year. Also, the CRRP Program has
                                       successfully partnered with the Interregional Research Project No. 4 to make
 Ensuring the safety of               reduced risk pesticides widely available to a diverse population of growers.
  chemicals and preventing
  pollution.                           Recommendations and Agency Response
For further information,
contact our public affairs office at
                                       We recommend that the Assistant Administrator for Chemical Safety and
(202) 566-2391.                        Pollution Prevention seek authority from Congress to reduce PRIA application
                                       fees for reduced risk pesticides to increase participation, and develop measures
The full report is at:                 that better capture the impact of the entire CRRP Program. The EPA agreed
www.epa.gov/oig/reports/2014/          with our recommendations and has proposed acceptable corrective actions.
20140724-14-P-0322.pdf                 All recommendations are resolved.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                              July 24, 2014

MEMORANDUM

SUBJECT:       Impact of EPA’s Conventional Reduced Risk Pesticide Program Is Declining
               Report No. 14-P-0322

FROM:          Arthur A. Elkins Jr.

TO:            Jim Jones, Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. Final determinations on matters in this
report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility for the issues evaluated in this report is the Office of
Chemical Safety and Pollution Prevention’s Office of Pesticide Programs.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.
Impact of EPA’s Conventional Reduced Risk                                                                                   14-P-0322
Pesticide Program Is Declining




                                     Table of Contents
   Purpose......................................................................................................................   1

   Background ...............................................................................................................      1

   Noteworthy Achievements .......................................................................................                 3

   Scope and Methodology ...........................................................................................               3

   CRRP Registrations and Participation Declined
     Following Statutory Changes .............................................................................                     4

   Incomplete Measures Leave Impacts Unreported...................................................                                 5

   Conclusions...............................................................................................................      7

   Recommendations ....................................................................................................            7

   Agency Comments and OIG Evaluation ..................................................................                           7

   Status of Recommendations and Potential Monetary Benefits .............................                                         9



 Appendices
   A       Agency Response to Draft Report ..................................................................                      10

   B       Distribution .......................................................................................................    13
Purpose
                    We conducted this review of the U.S. Environmental Protection Agency’s
                    (EPA’s) Conventional Reduced Risk Pesticide (CRRP) Program to determine
                    whether it was meeting its goal of reducing risks to human health and the
                    environment by encouraging registration of pesticides that are lower risk than
                    existing alternatives.

Background
                    The EPA gets its authority to regulate pesticides under the Federal Insecticide,
                    Fungicide and Rodenticide Act (FIFRA).1 The EPA defines a pesticide as any
                    substance intended to destroy, prevent or repel pests, such as insects, weeds, fungi
                    and rodents. Pesticides are an integral part of agriculture. Many household
                    products are also pesticides, including insect repellents for personal use, weed
                    killers, disinfectants and some swimming pool chemicals. Once released into the
                    environment, pesticides have the potential to pollute rivers, groundwater, air, soil,
                    wildlife and food. Pesticides are regulated by FIFRA through an application
                    review and approval process. A product must be registered for each crop, indoor
                    use, or use on or near food. To be used in other ways, the product must also be
                    registered for those uses, either with the original application or in a separate
                    application.

                    The CRRP Program is implemented by the Office of Chemical Safety and
                    Pollution Prevention’s Office of Pesticide Programs (OPP). The goal of this
                    program is to promote the development and registration of lower-risk pesticides.
                    These products are intended to reduce risks to human health and the environment
                    when compared to existing conventional pesticides currently on the market. The
                    CRRP Program expedites the review of reduced risk pesticide applications so that
                    these products are available to growers as soon as possible. Expected participants
                    in this program are the chemical companies that submit pesticide registration
                    applications to the EPA. In return for making a reduced risk product and for
                    participating in the CRRP Program, the manufacturer’s registration application is
                    expedited through the review process, shortening the process by up to 6 months.

                    To participate in the CRRP Program, the applicant must develop a “reduced risk
                    rationale” document. The rationale outlines the reasons why the participant’s
                    product satisfies the CRRP criteria and should be identified as a reduced risk
                    product. It includes risk comparison information between the chemical being
                    considered for reduced risk status and chemicals currently in the marketplace for
                    that use. The development of the rationale document can take hundreds of work
                    hours to complete.




1
    7 U.S. Code § 136a - Registration of pesticides.


14-P-0322                                                                                               1
                 The EPA cites a number of advantages to CRRPs over existing non-CRRPs,
                 including low impact on human health; lower toxicity to non-target organisms
                 (birds, fish, plants); low potential for groundwater contamination; low application
                 rates; low pest resistance potential; and compatibility with Integrated Pest
                 Management practices. The EPA notes there are marketing advantages to
                 receiving reduced risk status, although companies are not allowed to put a
                 reduced risk pesticide claim on their labels. Also, some end users give preference
                 to crops treated with reduced risk pesticide products.

                 The CRRP Program began in 1992 and the EPA approved 14 reduced risk
                 pesticides between 1993 and 1997. The Food Quality Protection Act of 1996
                 formalized the program in statute, mandating that the EPA provide guidance to
                 the applicants and implement the CRRP Program by 1997. Until 2004, when the
                 Pesticide Registration Improvement Act (PRIA) was passed, the EPA reviewed
                 pesticides under a priority system set annually by growers, industry,
                 manufacturers and the EPA working together. The chemicals or ingredients that
                 were on the priority list each year were more likely to get reviewed.

                 In 2004, Congress amended FIFRA by adding PRIA to the statute.2 The PRIA
                 amendment did not change the way the EPA reviewed pesticide applications.
                 PRIA instead established required timelines for the review of all applications, not
                 just the chemicals prioritized under the traditional process. According to an
                 industry representative, before PRIA was enacted the average time for a regular
                 New Active Ingredient approval was 38 months, compared to 14 months for
                 New Active Ingredient CRRP products. In 2014, the review timeframe fell to
                 24 months for non-CRRP products and 18 months for CRRP products.
                 Table 1: FY 2014-2015 New Active Ingredient pesticide fees and review time
                                                                                                   FY 2014-2015
                                                                                  EPA review      EPA registration
                                         Action decision                        time (months)       service fee
                  New Active Ingredient, Food Use                                     24             $597,683
                  New Active Ingredient, Food Use, Reduced Risk                       18               597,683
                  New Active Ingredient, Non-Food Use; Outdoor                        21               415,241
                  New Active Ingredient, Non-Food Use; Outdoor, Reduced Risk          16               415,241
                  New Active Ingredient, Non-Food Use; Indoor                         20               230,947
                  New Active Ingredient, Non-Food Use; Indoor, Reduced Risk           14               230,947
                 Source: OPP.

                 In addition to revising review timelines, PRIA also implemented pesticide
                 registration service fees, which add costs to the registration process. The highest
                 registration fees apply to “New Active Ingredients.” As shown in table 1, while
                 the EPA review time is reduced under PRIA the review time is still less for

2
  The original PRIA statute—passed in 2004—was in effect from March 23, 2004, until September 30, 2007, and is
now referred to as PRIA 1. PRIA 2 was in effect from October 1, 2007, through September 30, 2012. PRIA 3 came
into effect on October 1, 2012, and is slated to expire on September 30, 2017.


14-P-0322                                                                                                        2
            reduced risk pesticide registrations. The EPA’s pesticide registration fees are the
            same regardless if it is a CRRP or non-CRRP.

            Another significant participant in the CRRP Program is the Interregional
            Research Project No. 4, commonly known as IR-4. Sponsored by Rutgers
            University, IR-4 is a non-profit program that works in partnership with the
            U.S. Department of Agriculture (USDA), the land grant university system, the
            EPA, the agrochemical industry, commodity groups and growers. It is often not
            cost effective for the manufacturer to develop residue data to support registration
            for minor use crops like blueberries, strawberries or carrots. IR-4 conducts
            residue field trials and submits tolerance petitions for these minor use crops.

Noteworthy Achievements
            The CRRP Program has been successful in bringing reduced risk pesticides to
            market since 1993. Fifty-six new reduced risk pesticides and 727 reduced risk
            pesticide uses for existing chemicals have been approved, and more than
            20 percent of agricultural pesticides applied today are reduced risk products.
            This means that, each year, reduced risk pesticides are applied to approximately
            20 percent, or 169 million acres, of U.S. farmland. Further, the CRRP Program
            has actively partnered with Rutgers University’s IR-4 program to expand the use
            of CRRPs to additional crops.

Scope and Methodology
            We conducted this audit from April 2013 to April 2014, in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objective. We believe that the evidence obtained provides a reasonable basis for
            the results reported based upon our objective, and that our conclusions are
            sufficiently based on evidence collected during the course of this audit.

            To address our objective, we reviewed and analyzed relevant federal statutes,
            regulations and guidance. We interviewed officials, managers and staff in OPP.
            We also reviewed five CRRP Program application documents to determine the
            type of information provided to the EPA to make its reduced risk decisions.
            Finally, we gathered information from several organizations that work with the
            EPA in the manufacture and registration of CRRPs.




14-P-0322                                                                                         3
CRRP Registrations and Participation Declined Following
Statutory Changes
                 The impact of the CRRP Program has been declining for the past 10 years. The
                 program is not registering as many CRRP products nor attracting as many CRRP
                 applications as before the implementation of the PRIA 1.3 One factor is that the
                 PRIA pesticide registration service fees are the same regardless of whether an
                 application is a CRRP or non-CRRP product. While the CRRP applicant could
                 still get its product to market more quickly than a non-CRRP product, the
                 applicant must weigh the time advantage against paying both the application costs
                 and the CRRP-rationale development costs. Moreover, the time-to-market benefit
                 from participation has reduced significantly since the inception of the program.

                 Challenges to the success of the CRRP Program were introduced with the passage
                 of the original PRIA legislation. PRIA 1 not only introduced registration service
                 fees, it also changed application review timeframes, which narrowed the gap
                 between regular applications and CRRP application review. These review
                 timeframe reductions continued with subsequent PRIA revisions. By the time
                 PRIA 3 was enacted, reductions in all regular pesticide registration review
                 timeframes had been established. As shown in figure 1, CRRP New Chemical
                 registrations generally increased since the program was piloted in 1994, peaking
                 in 2000, when seven New Chemical CRRP products were registered. After the
                 implementation of PRIA 1, the number of new chemical registrations decreased
                 by 71 percent, and there have only been 11 new chemical registrations since 2004.

                 Figure 1: New Chemical CRRP registrations per year, 1994–2013

                   8
                                                                                                                   New chemicals per year
                   7

                   6
                                                                                                     PRIA enacted, 2004
                   5

                   4

                   3

                   2

                   1

                   0
                                                                  2000
                        1994
                               1995
                                      1996
                                             1997
                                                    1998
                                                           1999


                                                                         2001
                                                                                2002
                                                                                       2003
                                                                                              2004
                                                                                                     2005
                                                                                                            2006
                                                                                                                    2007
                                                                                                                           2008
                                                                                                                                  2009
                                                                                                                                         2010
                                                                                                                                                2011
                                                                                                                                                       2012
                                                                                                                                                              2013




                 Source: Office of Inspector General (OIG) analysis of OPP data.

3
  An application is the submission of paperwork by the manufacturer seeking the registration of a reduced risk
product. A registration means that the reduced risk application has been approved and the chemical is registered by
the EPA as a conventional reduced risk product.


14-P-0322                                                                                                                                                            4
            Similarly, the data in figure 2 illustrates that registration of New Uses for Existing
            Chemicals fell by 72 percent after PRIA 1 was enacted.
            Figure 2: Existing Chemical, New Use CRRP registrations per year, 1997–2013

             180
                                                                     Registrations per year
             160
             140
             120
             100
              80
                                                     PRIA enacted, 2004
              60
              40
              20
                0



            Source: OIG analysis of OPP data.

            OPP staff agreed that PRIA has had a significant adverse impact on the number of
            applications received, and the number of registrations achieved, by the CRRP
            Program. The EPA has only an advisory role in specifying the timelines for
            application reviews and does not have the authority to change the fee schedule
            under PRIA. Further, OPP staff informed us that, in their opinion, the PRIA 3
            review timeframes could not reasonably be reduced any further or the scientific
            review may not be sufficient. As a result, fee reductions seem to be the only
            viable option to increase participation in the CRRP Program.

            While the EPA does not have the authority to reduce registration service fees, the
            agency is authorized to exempt those registration applications associated with
            IR-4 submissions. With the decline in participation, the CRRP Program’s human
            health and environmental impacts may also be declining. To encourage increased
            participation in the CRRP Program, the EPA should seek the authority to reduce
            the fees for CRRP applications. Even a 10-percent reduction for a “New Active
            Ingredient, Food Use” product would reduce the fee by nearly $60,000.

Incomplete Measures Leave Impacts Unreported
            The EPA’s CRRP Program does not have complete measures to determine the
            impacts of the entire CRRP effort. The EPA’s current performance measure does
            not completely capture the entire population of CRRP products, and is limited
            only to products with agricultural uses. The EPA measures its outcome as the
            “percentage of agricultural acres treated with reduced risk pesticides.” As shown



14-P-0322                                                                                        5
            in figure 3, usage of CRRP products increased from approximately 3 percent in
            1998 to 22 percent in 2012.
            Figure 3: Percentage of agricultural acres treated with reduced risk pesticides,
            1998-2012


                         Percentage of Agricultural Acres
                      Treated with Reduced-Risk Pesticides
             25

             20

             15

             10

              5

              0
               1996     1998    2000     2002   2004   2006   2008   2010   2012    2014
            Source: OIG analysis of OPP data.

            This measure calculates the percentage of agricultural acre treatments made using
            reduced risk pesticides based on data collected from the USDA. Analysis of the
            data is used to determine the overall level of CRRP product usage across more
            than 843 million acres that are regularly farmed in the United States.

            OPP staff told us that this increase is the result of two specific chemicals on three
            crops. The first—glyphosate (Roundup®)—was used on genetically modified
            “Roundup-resistant” corn and soybeans and is responsible for roughly 75 percent
            of the annual agricultural acre treatments of reduced risk pesticides. The second—
            Bacillus thuringiensis—is a naturally occurring bacterium that is genetically
            spliced to corn and cotton seeds and makes up about 20 percent of the remaining
            reduced risk pesticides’ annual agricultural acre treatments. All other agricultural-
            use CRRP products make up the remaining 5 percent of the measure above.

            Although the agricultural pesticide application captures the majority of CRRP
            usage, there are also several CRRP products that are not registered for agricultural
            use. These CRRP products are mostly used in non-agricultural commercial
            applications, and some are used indoors or around food products. According to
            OPP staff, non-agricultural-product use is very difficult to collect because the
            applications are made by a diverse set of pesticide users to a wide range of use
            sites.




14-P-0322                                                                                      6
            OPP staff mentioned that California requires reporting of commercial applications
            but the EPA does not currently collect this type of data. When we discussed this
            issue further, the PRIA Ombudsman indicated that it could be important to begin
            trying to capture this data for future measurements. Although the non-agricultural
            chemicals are only a small percentage of the overall effort, this could change in
            the future. Without measures that capture all agricultural and non-agricultural uses
            of CRRP pesticides, the EPA cannot accurately determine the outcomes and
            impacts of the CRRP Program’s efforts.

Conclusions
            The EPA is required by law to implement the CRRP Program, but over the last
            several years participation in the program has waned. Without a reduction in
            barriers, participation in the CRRP Program may continue to decline. Numerous
            obstacles impact the number of products that are registered under the program,
            and the agency does not currently have the authority to reduce these barriers.
            Further, the CRRP Program’s measures do not report results from all likely
            impacts from the program. The EPA must address the participation barriers, as
            well develop and implement representative measures, to better capture the
            impacts of the CRRP Program.

Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1. Reduce participation barriers for the CRRP Program by seeking statutory
                  authority from Congress to reduce application fees for approved CRRP
                  registrations.

               2. Develop and implement measures for non-agricultural uses of CRRP
                  products so that OPP’s data are representative of the CRRP Program’s
                  entire effort.

Agency Comments and OIG Evaluation
            The agency agreed with our findings and recommendations, and provided
            corrective actions and estimated completion dates that meet the intent of the
            recommendations. The agency’s response to the first recommendation is
            contingent, in part, on a reauthorization of PRIA after the current legislation
            expires in September 2017. The agency’s response to the second recommendation
            is contingent on the availability of information to support an appropriate measure
            of reduced-risk non-agricultural pesticide usage. At a meeting to discuss the
            agency’s comments on the report, the agency was advised that the OIG will be
            monitoring the status of each corrective action after each estimated completion
            date. Based on this meeting and the agency’s written response, we have


14-P-0322                                                                                     7
            determined that the recommendations are resolved and open with corrective
            actions ongoing. No further response to this report is required. The agency’s
            detailed response is in appendix A. The agency also provided technical comments
            on the draft report, which we have incorporated into our report as appropriate.




14-P-0322                                                                                 8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.                                                                                                           Completion   Claimed    Agreed-To
    No.    Page No.                        Subject                         Status1        Action Official             Date      Amount      Amount

     1         7       Reduce participation barriers for the CRRP            O       Assistant Administrator for   09/30/2017
                       Program by seeking statutory authority from                     Chemical Safety and
                       Congress to reduce application fees for approved                Pollution Prevention
                       CRRP registrations.

     2         7       Develop and implement measures for non-               O       Assistant Administrator for   06/30/2015
                       agricultural uses of CRRP products so that OPP’s                Chemical Safety and
                       data are representative of the CRRP Program’s                   Pollution Prevention
                       entire effort.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0322                                                                                                                                          9
                                                                                       Appendix A

                   Agency Response to Draft Report


                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460

                                                                                   OFFICE OF CHEMICAL SAFETY
                                                                                   AND POLLUTION PREVENTION

                                          June 16, 2014

MEMORANDUM

SUBJECT:       Comments on Draft Report "Impact of EPA's Conventional Reduced Risk
               Pesticide Program Is Declining" Project No. OPE-FY13-0003

 FROM:         James Jones, Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

 TO:           Carolyn Copper, Assistant Inspector General
               Office of Program Evaluation

This memorandum is in response to the Office of Inspector General's (OIG) April 29, 2014,
Draft Report, entitled Impact of EPA's Conventional Reduced Risk Pesticide Program Is
Declining (Project No. OPE-FY13-0003) which evaluated the Agency's Conventional Reduced
Risk Pesticide Program (CRRP). The Office of Chemical Safety and Pollution Prevention
(OCSPP) appreciates the OIG's efforts to review the CRRP and the OIG's interest in improving
this program. The Agency agrees with the OIG that some improvements can be made to the
program, yet we would like to offer information to better characterize this program. We support
both of the recommendations made by the OIG and have provided corrective actions with
timeframes. We have also attached a track changes version of the draft report with edits that
clarify goals and details of the CRRP.

I.     Background

EPA believes it is critical to view the CRRP in the context of EPA's overall pesticide
registration program and the requirements of the Pesticide Registration Improvement Act
(PRIA), as amended. The Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA)
requires that, before selling or distributing a pesticide in the United States, a person or company
must obtain a registration, or license, from EPA, unless the product is exempt from pesticide
registration. Before registering a new pesticide or new use for a registered pesticide, EPA must
first ensure that the pesticide, when used according to label directions, can be used without
posing unreasonable risks to human health or the environment.



14-P-0322                                                                                         10
In 2004, at the behest of a coalition of industry trade associations and environmental advocacy
groups (the PRIA Coalition), Congress enacted PRIA and amended FIFRA to add required fees
and specific decision timeframes for the review of 90 covered pesticide application categories.
(Prior to PRIA, FIFRA did not require EPA to make decisions on most types of applications for
registration within specific deadlines.) PRIA was subsequently amended two more times (2007
and 2012), with changes adding covered pesticide application categories - there are now 189
covered categories -as well as fee and timeframe changes. Under PRIA significantly greater
predictability was achieved regarding when a regulatory decision would be made for both
reduced risk and non-reduced risk covered applications. PRIA has also resulted in a smaller
differential in the decision time frames between reduced risk and non-reduced risk applications
than what existed prior to PRIA. The additional resources provided by PRIA fees were used, in
part, to reduce by about 6 months (from 24 months (before PRIA) to 18 months) the average
amount of time to make regulatory decisions on applications to register products containing
new reduced risk active ingredients (AIs). While the PRIA fees for new AI and new use
applications, whether reduced risk or not, are the same, the decision timeframes under PRIA for
new, reduced risk AI and new uses applications are shorter compared to non-reduced risk
applications - six months for new AIs and five months for new uses.

EPA's CRRP is a voluntary program that offers faster review times for reduced risk pesticides.
The goal of CRRP is to register commercially viable alternatives to riskier conventional
pesticides such as neurotoxins, carcinogens, and developmental and reproductive toxicants.
The CRRP expedites the review and regulatory decision-making process for conventional
pesticides that pose less risk to human health and the environment than existing conventional
alternatives. This program does not apply to biological or antimicrobial pesticides, which are
handled through separate expediting processes. In order to qualify for CRRP status, the
applicant must provide a "reduced risk rationale" that compares risk endpoints for the chemical
in question to those for registered pesticides currently being used on the crop(s) for which
CRRP status is being sought. The reduced risk standard is a comparative standard, so once a
reduced risk pesticide has been registered for a crop, the next reduced risk application for that
crop is compared to it. The reduced risk standard is not static over time but becomes more
difficult to achieve as more reduced risk pesticides are registered. Even without PRIA, one
would expect a diminishing number of reduced risk pesticides as the standard becomes
increasingly more difficult to meet.

        EPA's CRRP is a voluntary program that offers faster review times for reduced risk
pesticides. The goal of CRRP is to register commercially viable alternatives to riskier
conventional pesticides such as neurotoxins, carcinogens, and developmental and
reproductive toxicants. The CRRP expedites the review and regulatory decision-making
process for conventional pesticides that pose less risk to human health and the environment
than existing conventional alternatives. This program does not apply to biological or
antimicrobial pesticides, which are handled through separate expediting processes. In order
to qualify for CRRP status, the applicant must provide a "reduced risk rationale" that
compares risk endpoints for the chemical in question to those for registered pesticides
currently being used on the crop(s) for which CRRP status is being sought. The reduced
risk standard is a comparative standard, so once a reduced risk pesticide has been registered
for a crop, the next reduced risk application for that crop is compared to it. The reduced risk



14-P-0322                                                                                       11
standard is not static over time but becomes more difficult to achieve as more reduced risk
pesticides are registered. Even without PRIA, one would expect a diminishing number of
reduced risk pesticides as the standard becomes increasingly more difficult to meet.

    II.      OCSPP Responses to OIG's Recommendations

       As required by EPA Order 2750, "EPA's Audit Management Process," we are
addressing the OIG's recommendations as follows:

          OIG recommended that the Assistant Administrator for Chemical Safety and Pollution
          Prevention take the following actions:

          1. Reduce participation barriers for the CRRP Program by seeking statutory
          authority from Congress to reduce application fees for approved CRRP registrations.

OCSPP Response: OCSPP Response: While OCSPP is constrained from seeking such
statutory change from Congress directly, we maintain a positive relationship with the PRIA
Coalition and can discuss this with the Coalition. In addition, if the Coalition were to seek
another renewal of PRIA when the law expires in 201 7, EPA will transmit this recommended
change to the fees charged to applicants for reduced risk products to the Coalition. Transmittal
of this recommendation will occur within 30 days from when the Coalition approaches EPA
regarding PRIA renewal.

             2. Develop and implement measures for non-agricultural uses of CRRP
             products so that OPP's data are representative of the CRRP Program's entire
             effort.

OCSPP Response: OCSPP believes it is valuable to pursue this recommendation, even
though the non-agricultural pesticide usage data available to create a measure similar to the
current agricultural CRRP products measure has significant limitations. We note that there
are very few non-agricultural CRRP products, and OCSPP does not have data representative
of the national non-agricultural uses. The available data is limited in its scope and coverage
of non-agricultural markets in the following ways: not every non-agricultural market is
captured in the data, the data collected is not consistent from market to market, and the data
is not collected every year. Thus, in the past, we have not used the data to develop a national
non-agricultural CRRP usage performance measure. However, within one year, OCSPP will
explore the use of the available data to determine the possibility of creating a standardized
measure for non-agricultural uses.

Attachment: Technical Corrections to DRAFT OIG Report




14-P-0322                                                                                          12
                                                                                  Appendix B


                                     Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Chemical Safety and Pollution Prevention
Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention




14-P-0322                                                                                    13
